Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

85073

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 2nd day of November 2020 deponent served 3 copies of the within
BRIEF IN OPPOSITION FOR RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Toby Crouse
Office of Attorney General Derek Schmidt
120 S.W. 10th Avenue ,2nd Floor
Topeka, KS 66612
785.368.6693

Mark P. Johnson
Dentons US LLP
4520 Main Street, Suite 11 DO
Kansas City, MO 64111
81 6 460-2424

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on November 2, 2020, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served .

.d~~0~Howard Daniels

Sworn to me this

November 2, 2020
Alessandra Kane
Notary Public, State of New York
No. 01 KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

~
Notary Public

Case Name: Schwab v Fish
Docket/Case No. 20-1 09

